Audit Report




OIG-06-029
INTERNATIONAL ASSISTANCE PROGRAMS: Review of Treasury
Activities for Iraq Reconstruction


March 23, 2006




Office of
Inspector General
Department of the Treasury
Contents

Audit Report

  Background.......................................................................... …………………… 2

  Findings …………………… .............................................................................. 5

     Treasury Provides Technical Assistance and Support to Modernize
     the Iraqi Banking System ........................................................................... 5

     The Financial Information Provided by OTA Fairly Presented
     the Fund-Use Status of Treasury’s Iraq Reconstruction Activities .................... 7

Appendices

  Appendix   1:      Objectives, Scope, and Methodology ..................................... 11
  Appendix   2:      OTA IRRF Fund-Use Statement ............................................... 12
  Appendix   3:      Management Response ......................................................... 13
  Appendix   4:      Report Distribution ............................................................... 14

Abbreviations

  ACH                Automated Clearing House
  CBI                Central Bank of Iraq
  CPA                Coalition Provisional Authority
  IFC                International Finance Corporation
  IFTF               Iraq Financial Task Force
  IRRF               Iraq Relief and Reconstruction Fund
  OIG                Office of Inspector General
  OMB                Office of Management and Budget
  OTA                Office of Technical Assistance
  PSD                Treasury Departmental Offices’ Procurement Services Division
  RTGS               Real Time Gross Settlement
  SIGIR              Special Inspector General for Iraq Reconstruction
  Treasury           United States Department of the Treasury
  U.S.               United States




                  INTERNATIONAL ASSISTANCE PROGRAMS: Review of Treasury                        Page i
                  Activities for Iraq Reconstruction
                                                                                   Audit
OIG
The Department of the Treasury
                                                                                   Report
Office of Inspector General


                      March 23, 2006


                      Van B. Jorstad
                      Director, Office of Technical Assistance
                      Office of International Affairs

                      This report provides the results of our review of the Department
                      of the Treasury’s (Treasury) activities for Iraq Reconstruction,
                      in which the Office of Technical Assistance (OTA) plays a central
                      role. Our objectives were to (1) identify Treasury activities and
                      funding involving Iraq relief and reconstruction and (2) determine
                      the completeness and accuracy of the information provided by
                      OTA in its reports to the Special Inspector General for Iraq
                      Reconstruction (SIGIR) regarding its activities for Iraq
                      reconstruction.

                      Treasury’s Iraq reconstruction activities have been funded by two
                      Iraq Relief and Reconstruction Funds (IRRF)—IRRF 1 and IRRF 2.
                      We identified two OTA-administered reconstruction programs and
                      found that as of August 31, 2005, approximately $29.4 million
                      had been obligated out of $35.1 million apportioned for the
                      programs and about $23.2 million had been disbursed.1

                      We reviewed selected contracts and related documentation to
                      verify the fund-use status statement through August 31, 2005,
                      provided to SIGIR, which is included in Appendix 2.
                      A more-detailed description of our objectives, scope, and
                      methodology is included in Appendix 1.

                      We found that the fund-use status statement fairly presented the
                      financial status of the contractual obligations and disbursements
                      through August 31, 2005. In its March 20, 2006, response to our
                      draft report, OTA management concurred with our findings. See
                      Appendix 3 for a copy of the management response.

1
  As of February 28, 2006, about $32.9 million had been obligated and about $26.3 million had been
disbursed.

                   INTERNATIONAL ASSISTANCE PROGRAMS: Review of Treasury                  Page 1
                   Activities for Iraq Reconstruction
_________________________________________________________________________________

Background
                  Office of Technical Assistance

                  OTA provides technical assistance to countries with transitional
                  or developing economies. OTA is under the supervision of the
                  Deputy Assistant Secretary for Technical Assistance Policy,
                  who is 1 of the 6 deputies supporting the Assistant Secretary for
                  International Affairs. The Deputy Assistant Secretary for Technical
                  Assistance Policy develops, evaluates, and implements Treasury
                  policies and positions on economic and financial assistance to
                  countries with transitional or developing economies.

                  Since 1990, OTA has provided advisory services to governments
                  in Central and Eastern Europe and the former Soviet Union to assist
                  in their transitions to market economies. Typically, a Treasury
                  advisor, with the support of short-term experts and technicians,
                  advises a senior finance ministry or central bank counterpart.
                  More recently, as countries in Eastern Europe and the former Soviet
                  Union have made progress in their transitions, OTA has addressed
                  challenges in other parts of the world, such as South Africa, Haiti,
                  and Indonesia.

                  In Iraq, Treasury’s primary reconstruction efforts are focused on
                  establishing modern central bank functions and a nationwide
                  payment system among local banks and the central bank. OTA has
                  been administering the banking sector establishment program by
                  awarding contracts and conducting procurement activities under
                  six major projects. OTA is the only Treasury office whose works
                  have been funded through the IRRFs.

                  Iraq Financial Task Force

                 To coordinate and support Treasury’s reconstruction efforts,
                 in March 2003 the Under Secretary for International Affairs
                 created the Iraq Financial Task Force (IFTF) within the Office of
                 International Affairs. The Director of International Affairs’ Office
                 of Middle East and South Asian Nations at that time was appointed
                 to lead the task force.



                  INTERNATIONAL ASSISTANCE PROGRAMS: Review of Treasury         Page 2
                  Activities for Iraq Reconstruction
_________________________________________________________________________________

                      The task of IFTF was to coordinate the planning and execution of
                      Treasury’s role in the post-war stabilization, administration, and
                      reconstruction of Iraq. The staff of the task force was composed
                      of officials of Treasury’s Office of International Affairs, the Federal
                      Reserve Bank of New York, Treasury’s Office of the Fiscal
                      Assistant Secretary, and a few detailed officials from the
                      Department of the State and the United States (U.S.) Agency for
                      International Development. At its heights, the task force had
                      approximately a dozen staff members. IFTF and its function were
                      folded into the Office of Middle East and South Asian Nations in
                      August 2005.

                      IFTF served as liaison among Treasury and various organizations
                      involved in the post-conflict reconstruction, such as the
                      International Monetary Fund; the World Bank; Iraqi exiles, some of
                      whom later became officials in Iraq; as well as the U.S. agencies
                      involved in the reconstruction. Because Treasury’s involvement
                      was focused on the financial sector, IFTF’s role was also focused
                      on that sector.

                      In particular, IFTF was involved in discussing and planning the
                      printing and delivery of the new Iraqi currency (the dinar); sought
                      expertise from the Federal Reserve System, the Office of the
                      Comptroller of the Currency, and the International Monetary Fund
                      in formulating macroeconomic, monetary, banking and exchange
                      rate policies to stabilize the economy; and coordinated the debt
                      relief efforts with the members of the Paris Club,2 working closely
                      with the Treasury Office of International Debt Policy. As OTA was
                      involved in technical assistance to Iraqi financial institutions, IFTF
                      was actively engaged in its mission, providing support to the OTA
                      advisors working in Iraq. The IFTF’s work and the salaries of its
                      staff were not funded by the IRRFs.3


2
  The Paris Club is an informal group of official creditors whose role is to find coordinated and
sustainable solutions to the payment difficulties experienced by debtor nations. The first meeting
was held in 1956 when Argentina agreed to meet its public creditors in Paris. There are currently
19 permanent members, including the United States. Iraq’s external debt was estimated to be around
$120 billion, of which the Paris Club members were owed roughly $40 billion. The rest of Iraq’s debt
was held by non-Paris Club governments, chiefly the Gulf States.
3
  They were assigned to the task and thus compensated by their respective agencies.


                    INTERNATIONAL ASSISTANCE PROGRAMS: Review of Treasury                  Page 3
                    Activities for Iraq Reconstruction
_________________________________________________________________________________

                       Iraq Relief and Reconstruction Funds

                       On May 22, 2003, President Bush issued Executive Order 13303
                       to protect the Development Fund for Iraq4 and the proceeds from
                       the sales of Iraqi petroleum and petroleum products to assure an
                       orderly reconstruction of Iraq. This fund and dozens of others
                       constitute the funding sources for Iraq relief and reconstruction.
                       Among them are two appropriated funds5—commonly referred to
                       as IRRF 1 and IRRF 2.

                       IRRF 1 was established by Public Law 108-11 in April 2003 for
                       necessary expenses for humanitarian assistance, rehabilitation,
                       and reconstruction in Iraq. Congress appropriated a total of
                       $2.475 billion for IRRF 1, and the Office of Management and
                       Budget (OMB) allocated this amount among the U.S. Agency for
                       International Development, the Department of Defense, the
                       Department of State, and Treasury. The apportionment for
                       Treasury was $6.0 million.

                       IRRF 2 was established by Public Law 108-106 in November 2003
                       for the defense and reconstruction of Iraq and Afghanistan.
                       Congress appropriated $18.4 billion for IRRF 2, which OMB also
                       allocated among the U.S. Agency for International Development,
                       the Department of Defense, the Department of State, and
                       Treasury. The original apportionment for Treasury was
                       $39.1 million, of which $10.0 million6 was transferred to the
                       International Finance Corporation (IFC), a member of the World
                       Bank Group, under an agreement between the U.S. Government
                       and IFC dated April 2, 2004. Therefore, the remaining two
                       programs represent Treasury’s actual reconstruction activities, for
                       which $35.1 million was funded by IRRF 1 and IRRF 2.



4
  The Development Fund for Iraq is a fund established in May 2003 on the books of the Central Bank of
Iraq by the Administrator of the Coalition Provisional Authority. This fund consists of the proceeds from
the export sales of Iraq’s oil as well as the funds remaining from the United Nation Oil-for-Food Program
and other assets seized from the defunct regime.
5
  An appropriated fund is one that receives appropriations from Congress.
6
  Initially, $10.0 million was allocated for Treasury to fund the Micro, Small, and Medium Enterprise
Development Program.


                       INTERNATIONAL ASSISTANCE PROGRAMS: Review of Treasury                      Page 4
                       Activities for Iraq Reconstruction
_________________________________________________________________________________

                  Office of the Special Inspector General for Iraq Reconstruction

                 The Office of the SIGIR, formerly the Coalition Provisional Authority
                 (CPA) Office of Inspector General, is charged with independently
                 and objectively conducting and supervising audits and
                 investigations relating to programs and operations funded by the
                 IRRFs. The SIGIR, who reports to the Secretary of State and the
                 Secretary of Defense, works closely with other agencies,
                 inspectors general, and non-governmental entities to ensure that
                 reconstruction funds for Iraq are handled effectively and without
                 waste, fraud, or abuse.

                 The SIGIR submits quarterly reports to Congress outlining the key
                 findings and progress related to Iraq reconstruction programs, as
                 well as deficiencies and the corrective actions taken to improve the
                 programs. IRRF-funded agencies are required to report their
                 quarterly fund-use status to the SIGIR. Each quarter, the Treasury
                 Office of Inspector General (OIG) reviews OTA’s fund-use status
                 statements as well as the SIGIR’s quarterly reports to ensure the
                 accuracy and completeness of the information relating to the
                 Treasury’s reconstruction efforts. OIG also coordinates the SIGIR’s
                 audit efforts pertinent to the functions of the Treasury.

Findings

                  Treasury Provides Technical Assistance and Support to
                  Modernize the Iraqi Banking System

                  Under IRRF 1 and IRRF 2, Treasury was allocated funds for
                  two Iraq reconstruction programs:

                  1. The Technical Assistance Program (IRRF 1, $6.0 million)
                  2. The Banking System Modernization Program (IRRF 2,
                     $29.1 million)

                  The Technical Assistance Program provides advisory services to
                  Iraqi officials in administering the economic, fiscal, and financial
                  sectors. The funds allocated to the program have been used for
                  various operating expenses and the provision of security for civilian



                  INTERNATIONAL ASSISTANCE PROGRAMS: Review of Treasury             Page 5
                  Activities for Iraq Reconstruction
_________________________________________________________________________________

                         advisors and consultants, working for the economic, fiscal, and
                         financial sector reconstruction in Iraq. The personnel included,
                         but were not limited to, the Treasury officials who had expertise
                         in bank regulation and resolution, tax and budget administration,
                         and the formulation of economic and financial institution policies.
                         As of June 5, 2003, 25 personnel were deployed in Iraq in
                         four separate phases.

                         Assigned mostly in the Iraqi Ministry of Finance and the Central
                         Bank of Iraq (CBI), the deployed personnel advised Iraqi officials on
                         overall debt policy, budget and tax policies and administration, and
                         bank operations. By the end of August 2005, Treasury had
                         obligated the full $6.0 million allocated under IRRF 1 for this
                         program and had disbursed about $4.7 million.

                         The purpose of the Banking System Modernization Program is to
                         modernize the Iraqi banking system. OTA has been administering
                         the program under six major projects.7 The projects are primarily to
                         build financial sector infrastructure, purchase bank equipment,
                         implement the core functions of CBI, train CBI staff, and establish
                         security for CBI personnel and others involved in implementing the
                         program.

                         To implement the core functions of CBI, OTA awarded contracts
                         for planning, acquisition, installation, and initial operation of two
                         essential components of a nationwide payment system for CBI.
                         The two components are a Real Time Gross Settlement (RTGS)
                         system, for making inter-bank payments with immediate finality
                         across the books of the CBI; and an Automated Clearing House
                         (ACH) system, for processing files of payment instructions, both
                         debits and credits, and settling on a net basis across the books of
                         CBI. The initial operation also included training of CBI staff and
                         staff from other participant banks so that operational responsibility
                         for the nationwide payment system can be transferred to CBI.

                         Also included in the program is an establishment of a Visa-based
                         interim bank branch payments and clearing system. This project


7
    Some of the major projects break down to several sub-projects with different contracts.


                         INTERNATIONAL ASSISTANCE PROGRAMS: Review of Treasury                Page 6
                         Activities for Iraq Reconstruction
_________________________________________________________________________________

                      refers to the payments of the membership fees to Visa International
                      Service Association on behalf of the Iraqi banks.

                      Typically, a contract is awarded by a contracting officer of the
                      Treasury Departmental Offices’ Procurement Services Division
                      (PSD) at OTA’s request. PSD monitors the execution of the
                      contract and keeps the records. When an invoice arrives at OTA,
                      an OTA official reviews and certifies it, and sends the invoice to
                      PSD. PSD reviews the invoice and approves the payment. OTA
                      then sends a payment notice to the Treasury Departmental Offices’
                      Office of Financial Management. Upon receiving the notice, the
                      Office of Financial Management pays the invoice.

                      The Banking System Modernization Program was funded through
                      IRRF 2. Of the $29.1 million apportioned for the program,
                      Treasury had obligated about $23.4 million and disbursed about
                      $18.4 million by the end of August 2005.8 In summary, from the
                      total of $35.1 million that Treasury received through IRRF 1 and
                      IRRF 2 to execute the two programs, about $29.4 million had been
                      obligated and about $23.2 million had been disbursed through
                      August 31, 2005. As a result, $5.7 million remained as the
                      available, unobligated balance at the end of August 2005.9

                      The Financial Information Provided by OTA Fairly
                      Presented the Fund-Use Status of Treasury’s Iraq
                      Reconstruction Activities

                      As required, OTA has provided the quarterly fund-use status
                      statements to the Office of the SIGIR.10 To obtain evidence about
                      the accuracy of this information, we selected a sample of four
                      major obligations under the six major projects11 to review the



8
  By the end of February 2006, for the Banking System Modernization Program about $26.9 million had
been obligated and about $21.4 million had been disbursed.
9
  By the end of February 2006, a total of $32.9 million had been obligated and $26.3 million had been
disbursed. As a result, about $2.2 million remained as the available balance.
10
   Currently, OTA sends monthly fund-use status statements to the SIGIR to provide more timely
information.
11
   The contracts under these projects ranged in value from $85,300 to $8,835,037.


                       INTERNATIONAL ASSISTANCE PROGRAMS: Review of Treasury                   Page 7
                       Activities for Iraq Reconstruction
_________________________________________________________________________________

                 statements of work for the related contracts, funds obligated, and
                 progress on the work. These obligations, described below, totaled
                 approximately $17.5 million, which is approximately 60 percent of
                 the $29.1 million allocated to Treasury for reconstruction projects
                 under IRRF 2.

                  Description of Sample Projects

                  1. Financial Sector Senior Advisors and Consultants: Protective
                     Services Transportation

                     This project provides secure transportation of senior advisors
                     and consultants who are working to facilitate the program in
                     Iraq. The services refer mainly to armored-vehicle
                     transportation of the personnel. For the Protective Services
                     Transportation project, $4,770,951 was obligated as of
                     August 31, 2005.

                  2. Essential Office Equipment for Banks

                     This project involves two contracts made through PSD. The
                     first contract, awarded for $1,065,335 in May 2004, procured
                     laser printers, cartridges, batteries, computers, monitors, and
                     other peripherals. The second contract, awarded for
                     $1,763,783 in June 2004, procured similar items. The total
                     obligation for the two procurement contracts was $2,829,118.

                  3. Visa-Based Interim Bank Branch Payments and Clearing System

                     As mentioned earlier, this project refers to the payments of the
                     membership fees to Visa International Service Association on
                     behalf of the Iraqi banks to establish an interim automated
                     payment system. This project was approved by the CPA, and a
                     memorandum for the obligation and disbursement was issued
                     by the member of the CPA responsible for the project; hence,
                     no further contract administration was required by OTA for the
                     transaction. A total of $1,134,000 was obligated as of
                     August 31, 2005.




                  INTERNATIONAL ASSISTANCE PROGRAMS: Review of Treasury          Page 8
                  Activities for Iraq Reconstruction
_________________________________________________________________________________

                  4. National Payment System (RTGS and ACH)

                     This project is an essential part of the banking system
                     modernization program. As previously described, this project
                     refers to an installation of two core bank payment systems –
                     the RTGS and ACH systems. OTA awarded a single contract
                     to execute the project. The amount of the contract, which was
                     awarded in April 2005, was $8,835,037. The contract line
                     items included software for the RTGS and ACH systems,
                     equipment and operating software, program management,
                     training and technical support. Nearly a half of the contract
                     amount was for the cost of the software for the RTGS and
                     ACH systems.

                 The contract amounts of the four sample projects were captured in
                 the worksheet that OTA used to list the projects and tally the
                 contract amounts. OTA summed up the contract amounts and
                 reported the sum as the obligation in its fund-use status statement
                 to SIGIR.

                 To verify the accuracy of the contract amounts of the sample
                 projects listed in the worksheet, we obtained the copies of the
                 sample contract documents from PSD. We found that the
                 obligations in the worksheet correctly reflected the contract
                 amounts recorded in the contract documents. Therefore, we
                 determined that the contract amounts were correctly captured in
                 the fund-use status statement.

                 We also considered the manner in which OTA compiles the
                 disbursement data for its reports to SIGIR and reviewed the
                 support for the disbursement amounts for the four sample projects.
                 We found that the disbursements of the four sample projects
                 totaled $12.9 million by the end of August 2005.

                 We found that the disbursements were made properly following the
                 due process of certification, approval, and documentation, after
                 confirmation of the receipt of goods and services in accordance
                 with the agreement set forth in the contracts.




                  INTERNATIONAL ASSISTANCE PROGRAMS: Review of Treasury      Page 9
                  Activities for Iraq Reconstruction
_________________________________________________________________________________

                  Based on our review, we concluded that the financial information
                  that OTA reported to the SIGIR fairly presented the fund-use
                  status of Treasury’s Iraq reconstruction activities through
                  August 31, 2005.


                                             *******

                 We would like to extend our appreciation to the Associate Director,
                 Operations and his staff for the cooperation and courtesies
                 extended to our staff during the review. If you have any
                 questions, please contact me at (202) 927-6512 or Myung Han,
                 Management Analyst, the major contributor to this report, at
                 (202) 927-4878.



                 /s/
                 Donald R. Kassel
                 Director, Fiscal Service Audits




                  INTERNATIONAL ASSISTANCE PROGRAMS: Review of Treasury       Page 10
                  Activities for Iraq Reconstruction
Appendix 1
Objectives, Scope, and Methodology




Our objectives were to (1) identify Treasury activities and funding
involving Iraq relief and reconstruction and (2) determine the
completeness and accuracy of the information that OTA provided
in its reports to the SIGIR on Treasury’s Iraq reconstruction
activities.

We reviewed the SIGIR’s initial report to Congress, dated
January 30, 2005, and updated reports thereafter. We reviewed
the relevant laws that appropriated funds for Treasury’s Iraq
reconstruction activities. We visited OTA and interviewed the
Associate Director, Operations, and the Operations Manager.
We also spoke with the Chief of the Internal Programs Contracts
Branch of Treasury’s Procurement Services Division.

We performed certain tests of the fund-use status statement that
OTA provided to the SIGIR for the month of August 2005.
Specifically, we reviewed the list of contracts awarded by OTA to
execute Iraq reconstruction program activities, which was provided
by OTA’s Associate Director, Operations, and tested a sample of
contractual obligations against the contract data obtained from
Procurement Services Division personnel to ensure that the
obligated amounts were correctly captured in the report. We also
reviewed the disbursement documents provided by OTA’s financial
manager.

We conducted our field work from August 2005 to October 2005
in accordance with generally accepted government auditing
standards.




INTERNATIONAL ASSISTANCE PROGRAMS: Review of Treasury         Page 11
Activities for Iraq Reconstruction
                         Appendix 2
                         OTA IRRF Fund-Use Statement




                                   Iraq Relief and Reconstruction Funds
                                  Treasury Office of Technical Assistance
                                        Status through 08/31/2005

                                        FY 2003                 FY 2003               FY 2004         TOTAL
                                     Iraq Relief &       International Affairs
 Fund Title                       Reconstruction Fund    Technical                 IRRF2 PC 08000
                                                         Assistance
 Fund Symbol                         20-113/41096              113/41045            20-114/61096
 Amount Received                             3,750,000               2,250,000          29,100,000   $35,100,000
 Obligations in FY 2003                        520,001               2,250,000                        $2,770,001
 Balance from previous report                        0                         0         7,011,411    $7,011,411
                        Project                      0                         0         6,233.748
                      Operating                      0                         0           777,663
 Received/Recoveries                                 0                         0                 0
                        Project                      0                         0                 0
                      Operating                      0                         0                 0
 Total Resources                                     0                         0         7,011,411    $7,011,411
                        Project                      0                         0         6,233,748
                      Operating                      0                         0           777,663
 Obligations                                         0                         0         1,308,788    $1,308,788
                        Project                      0                         0           531,125
                      Operating                      0                         0           777,663
 Available Balance                                   0                         0         5,702,623    $5,702,623
                        Project                      0                         0         5,702,623
                      Operating                      0                         0                 0

 Disbursements/Outlays(Total)               2,972,091                1,765,722          18,444,653   $23,182,466
                       Project                                                          16,602,855
                    Operating                                                            1,841,798

Note: The total obligation through the end of 08/31/2005 can be derived by subtracting the available
      balance ($5,702,623) from the total amount received ($35,100,000). Hence, it is $29,397,377.




                          INTERNATIONAL ASSISTANCE PROGRAMS: Review of Treasury                         Page 12
                          Activities for Iraq Reconstruction
Appendix 3
Management Response




INTERNATIONAL ASSISTANCE PROGRAMS: Review of Treasury   Page 13
Activities for Iraq Reconstruction
Appendix 4
Report Distribution




Department of the Treasury

Deputy Assistant Secretary for Technical Assistance
Associate Director, Operations, Office of Technical Assistance
Office of Strategic Planning and Performance Management
Office of Accounting and Internal Control

Office of Management and Budget

OIG Budget Examiner

Office of the Special Inspector General for Iraq Reconstruction




INTERNATIONAL ASSISTANCE PROGRAMS: Review of Treasury        Page 14
Activities for Iraq Reconstruction
